Report No. D-2011-110                  September 27, 2011




           Better Management of Fuel Contracts
               and International Agreements
                  in the Republic of Korea
                      Will Reduce Costs
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Office of Inspector General at http://www.dodig.mil/audit/reports or contact the
Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
(703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
COR                           Contracting Officer’s Representative
DFAS                          Defense Finance and Accounting Service
DLA                           Defense Logistics Agency
GOCO                          Government-Owned, Contractor-Operated
ROK                           Republic of Korea
USFK                          U.S. Forces Korea
--------------------------------------.-.-~--,~----




                                         INSPECTOR GENERAL
                                         DEPARTMENT OF DEFENSE
                                           400 ARMY NAVY DRIVE
                                      ARLINGTON, VIRGINIA 22202-4704                 SEP 2 7 2011


        MEMORANDUM FOR DIRECTOR, DEFENSE LOGISTICS AGENCY


        SUBJECT: Better Management of Fuel Contracts and International Agreements
                 in the Republic of Korea Will Reduce Costs
                 (Report No. D-2011-110)

        We are providing this report for review and comment. The Defense Logistics Agency
        Energy can help DoD reduce costs by better managing and administrating its fuel
        contracts and international agreements in Korea. We considered management comments
        on a draft of this report in preparing the final report. The complete text of the comments
        is in the Management Comments section of the report.

        Although management comments were responsive to the recommendations, the Defense
        Logistics Agency was unable to provide a revised estimate of potential monetary benefits
        shown in the report because negotiations with the applicable contractors had not been
        completed. We request that the Commander, Defense Logistics Agency Energy, provide
        comments on the estimated monetary benefits by November 28, 2011.

        We appreciate the courtesies extended to the staff. Please direct questions to me at
        (703) 604-8866 (DSN 664-8866).


                                                    tb t-~JJ{!CW/)0
                                                     Alice F. Carey        U
                                                     Assistant Inspector General
                                                     Readiness, Operations, and Support
Report No. D-2011-110 (Project No. D2010-D000LZ-0272.000)                  September 27, 2011


               Results in Brief: Better Management of Fuel
               Contracts and International Agreements in
               the Republic of Korea Will Reduce Costs
What We Did                                                      However, as a result of our audit, DLA
                                                                 Energy recouped these funds;
We reviewed the effectiveness and oversight of
16 contracts and 3 international agreements that             • did not recoup $17,151 of a $1.7 million
Defense Logistics Agency (DLA) Energy                            advance paid to a service provider
managed in support of fuel operations in Korea                   because DLA Energy personnel did not
and the accuracy of fuel inventories. DoD paid                   identify calculation errors made during
$550.8 million for procurement, storage, and                     the negotiation process; and
delivery of fuel purchased from vendors in Korea             • incorrectly reconciled the fuel account
during FY 2010.                                                  balances under the Fuel Exchange
                                                                 Agreement because of data and
What We Found                                                    procedural errors.
DLA Energy officials effectively managed and             In addition, we found problems related to two
provided sufficient oversight for 13 contracts and       other contracts. DLA Energy
1 international agreement. However, DLA                      • inconsistently interpreted the “Bunker”
Energy officials did not effectively administer                  contract for 12 deliveries because the
the contract for operating Army service stations.                contract did not clearly state what fuel
This occurred because contracting officers and                   price to use when no fuel price was
their representatives did not verify that the                    published; and
contractor was paid for only work performed,
and the contract lacked provisions for adjusting             • paid a contractor an undetermined
fixed charges to reflect changes in customer                     amount for an “automatic-fill” service
requirements. As a result, the contractor charged                that Government personnel performed.
DLA Energy:                                                      This may have been prevented if DLA
    • $144,815 as of January 31, 2011, to                        Energy had performed adequate research
        operate a cash sales function at Camp                    before awarding the contract.
        Humphreys, Korea that never took place.          Resolving these problems could reduce costs by
        DoD would have paid $413,758 during              more than $712,166 and improve accountability.
        the 5-year term of the contract if these
        charges continue; and                            What We Recommend
                                                         We recommend that the Commander, DLA
    • an estimated $121,628 for discontinued
        operations at three service stations.            Energy, recoup funds from contractors for
                                                         services not provided, modify appropriate
Additionally, the contractor issued fuel to              contracts to clarify language, and strengthen
customers who did not provide the required               oversight and controls to ensure the Government
documents because the contractor was unaware             receives what it is paying for.
of this requirement, and the contracting officer’s
representatives did not effectively monitor              Management Comments and
operations.                                              Our Response
DLA Energy also made incorrect payments and              DLA provided responsive comments to our
calculation errors related to two of the three           recommendations and proposed actions to
international agreements. DLA Energy                     improve operations and achieve monetary
    • overpaid $159,629 in monthly service               benefits. However, negotiations that would
         charges because of a calculation error          quantify monetary benefits were still in process.
                                                         We request DLA to provide a summary of
                                                         monetary benefits in response to the final report.

                                                     i
Report No. D-2011-110 (Project No. D2010-D000LZ-0272.000)             September 27, 2011

Recommendations Table

      Management              Recommendations Requiring         No Additional Comments
                                     Comment                           Required
Commander, Defense                                             Recommendations 1-8
Logistics Agency Energy


Upon completion of negotiations with the contractors discussed in Recommendations 1 and 8,
please provide comments by November 28, 2011, to the final report.




                                             ii
Table of Contents

Introduction                                                             1

      Objective                                                          1
      Background on Bulk Fuel Operations in Korea                        1
      DLA Energy Needs to Improve Contracting Internal Controls          1

Finding. DoD Can Reduce Fuel Costs Through Better Management of Contracts
and Related International Agreements                                      2

      DLA Energy Management and Oversight of Contracts
         and International Agreements in Korea                           2
      Need to Improve Management and Administration of the Contract
         for Operating Army Service Stations                             3
      Incorrect Payments Made and Better Documentation Needed for
         International Agreements                                        6
      Inconsistent Procedures for Determining Fuel Pricing for the
         “Bunker” Contract                                               9
      Post, Camp, and Station Contracts Should Be Modified to Delete
         Requirements for Work Not Performed                            10
      Recommendations, Management Comments, and Our Response            11

Appendices

      A. Scope and Methodology                                          16
            Use of Computer-Processed Data                              18
            Prior Coverage                                              18
      B. Summary of Potential Monetary Benefits                         19

Management Comments

      Defense Logistics Agency                                          20
Introduction
Objective
Our objective was to evaluate the management of bulk fuel operations in Korea at the
wholesale level. Specifically, we reviewed the effectiveness and oversight of Defense
Logistics Agency (DLA) Energy contracts and international agreements for procurement,
storage, and distribution of bulk fuel and the accuracy of fuel inventories. The
announced objective included a review of fuel requirements. However, we may review
fuel requirements, including requirements for contingency operations, in a separate
project. See Appendix A for a discussion of the scope and methodology and prior
coverage related to the objective.

Background on Bulk Fuel Operations in Korea
DLA Energy manages the procurement, storage, and distribution of wholesale petroleum
(fuel) products for DoD. DLA Energy’s mission is to provide DoD with comprehensive
energy solutions in the most effective and economical manner possible. In
accomplishing this mission, DLA Energy awards and manages numerous contracts and
participates in international agreements for the procurement, storage, and delivery of fuel.
DLA procurement and operational contracts for fuel were awarded at DLA Energy
headquarters. However, DLA Energy has an office in Korea that provided contract
oversight and quality management of DLA-owned fuel both in support of U.S. Forces
Korea (USFK) and shipped from Korea to U.S. forces outside Korea. During FY 2010,
DLA Energy spent $141.1 million under contracts and international agreements to
support USFK. In addition, DLA Energy paid $409.7 million to purchase fuel from
Korean commercial companies for delivery on tankers from Korea to other locations
throughout the world.

DLA Energy Needs to Improve Contracting Internal
Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified control
weaknesses in DLA Energy’s management and administration of bulk fuel-related
contracts in Korea. Specifically, contracting officers and their representatives did not
verify that the contractor was paid for only work performed, and the contract lacked
provisions for adjusting fixed charges to reflect changes in customer requirements. We
will provide a copy of the report to the senior official responsible for internal controls in
DLA Energy.




                                              1
Finding. DoD Can Reduce Fuel Costs
Through Better Management of Contracts
and Related International Agreements
DLA Energy effectively managed and provided sufficient oversight for 13 of 16 contracts
and 1 of 3 international agreements in place during FY 2010. However, DLA Energy did
not effectively administer the contract, valued at $4.4 million, for operating Army service
stations because contracting officers and their representatives did not verify that the
contractor was paid for only work performed, and the contract lacked provisions for
adjusting fixed charges to reflect changes in customer requirements. As a result, the
contractor charged DLA Energy:
    • $144,815 as of January 31, 2011, to operate a cash sales function at Camp
        Humphreys, Korea that never occurred. DoD would have paid $413,758 during
        the 5-year term of the contract if these charges continue; and
    • an estimated $121,628 for discontinued operations at three service stations.
Additionally, the contractor issued fuel to customers who did not provide the required
documents because the contractor was unaware of this requirement, and the contracting
officer’s representative (COR) did not effectively monitor operations.
DLA Energy also made incorrect payments and calculation errors related to two of the
three international agreements. DLA Energy
    • overpaid $159,629 in monthly service charges because of a calculation error.
        However, as a result of our review, DLA Energy recouped these funds;
    • did not recoup $17,151 of a $1.7 million advance paid to a service provider
        because DLA Energy personnel did not identify calculation errors made during
        the negotiation process; and
    • incorrectly reconciled the fuel account balances under the Fuel Exchange
        Agreement because of data and procedural errors.
In addition, we found problems related to two other contracts. DLA Energy
    • inconsistently interpreted the “Bunker” contract for 12 deliveries because the
        contract did not clearly state what fuel price to use when no fuel price was
        published; and
    • paid a contractor an undetermined amount for an “automatic-fill” service that
        Government personnel performed at Osan Air Base, Korea. This may have been
        prevented if DLA Energy had performed adequate research before awarding the
        contract, or if DLA Energy had appointed a COR to monitor the contract.
Resolving these problems will reduce operational costs and improve accountability. See
Appendix B for a Summary of Potential Monetary Benefits of more than $712,166.

DLA Energy Management and Oversight of Contracts
and International Agreements in Korea
DLA Energy personnel administered 16 contracts and 3 international agreements in place
during FY 2010 to support the procurement, storage, facility management, and delivery
of fuel for USFK and to other locations. The total cost of these contracts and
international agreements was $550.8 million for FY 2010. DLA Energy effectively
managed and provided sufficient oversight for 13 contracts and 1 international


                                            2
agreement. However, DLA Energy could improve the oversight and administration for
three contracts and two international agreements.

Need to Improve Management and Administration of the
Contract for Operating Army Service Stations
DLA Energy awarded a 5-year contract (SP0600-09-C-5904) with three 5-year options,
valued at $4.4 million for the initial 5 years, to AHN Tech-Korea Corporation, which
began on May 1, 2009. The contract required AHN Tech-Korea to operate and maintain
Government-owned, contractor-operated (GOCO) petroleum fuel facilities at 10 Army
installations in Korea for a fixed monthly fee. The facilities included service stations for
ground vehicles at each site, aviation refueling operations for two sites, and retail cash
sales at five sites. The contract contained a breakdown of the cost for operating each site.
The contractor was paid a fixed fee of $68,959.58 per month for operating the 10 sites
(plus a few minor cost reimbursable line items to be charged if needed).
Excess Charges for Operating Camp Humphreys Service Station
The primary mission of the service station at Camp Humphreys was to provide fuel for
Government vehicles and aircraft. Because most fuel for vehicles was issued to military
customers using automated procedures, the contractor’s presence was not required to
issue this fuel. The contract also called for operation of cash sales at
Camp Humphreys, which required the contractor to be present during all operational
hours. However, the contractor never implemented cash sale operations because the
Army and Air Force Exchange Service (Exchange) began operating a service station for
civilian customers before the contractor began operations in May 2009. The contract
stipulated a monthly price of $21,508.10 for operating the Camp Humphreys service
station, which included a monthly cost of $6,895.96 for a cash sales operation. However,
the contract stated that when the cash sales were discontinued, the contracting officer
would deduct the cash sales portion ($6,895.96) from the monthly price. Although AHN
Tech-Korea never provided a cash sales operation, it continued to charge for the service
through January 2011.

We questioned DLA Energy personnel on why they continued to pay the contractor for
the cash sales operation that was never performed. They stated that command personnel
at Camp Humphreys requested that DLA Energy not delete the contractual requirement
for a cash sales operation because it was needed as a contingency option in case the
Exchange service station could not provide fuel for civilians. However, the only support
for DLA Energy’s assertion was an e-mail from the COR requesting DLA to keep the
cash sales service as a backup contingency option just in case the Exchange service
station had problems and could not dispense fuel. Our discussions with the COR
indicated that he thought DLA Energy would put some type of contingency clause into
the contract to implement this requirement. Because no one questioned this payment
before our audit, it was probable that AHN Tech-Korea would have continued to bill
DLA Energy monthly for $6,895.96 for the 5-year term of the contract, costing DoD
$413,758. DLA Energy should modify the contract to delete the requirement for a cash
sales operation at Camp Humphreys and recoup the funds paid to the contractor for
services that it did not perform ($144,815 billed as of January 31, 2011).
Overpayments to Contractor for Closed Facilities
The contractor stopped operating Army service stations at 3 of the 10 installations—
Camps Eagle, Long, and Stanley in Korea—because the Army discontinued the
requirement. However, the contractor did not stop billing for the three installations.


                                             3
Consequently, the contractor overbilled DoD by an estimated $121,628 for services it did
not provide through January 31, 2011.

In April 2010, the DLA Energy contracting specialist asked the COR for documentation
on the official closing dates for the facilities. In the meantime, the contractor continued
to bill DoD for $68,959.58 each month to operate all 10 sites, and the Defense Finance
and Accounting Service (DFAS) paid those invoices. After
we discussed the contractor’s overbilling with the DLA                  The contracting
Energy Korea office, the contracting officer modified the            officer should recoup
contract on November 12, 2010, to recoup $57,550 paid for           an additional $64,078.
July through October 2010. However, the modification did
not include a reduction in the payments for the period actual operations were
discontinued at Camps Eagle and Long, or for the discontinued service at Camp Stanley,
as shown below. The contracting officer should recoup an additional $64,078.
          Estimate of Contractor Overbilling for Services Not Provided
Location Monthly/Daily1        Date      Date Tank       Contractor    Potential
            Charge per      Customer      Cleaning       Overbilling    Over-
              Contract       Service     Completed          Period     Payments
                             Stopped
Camp     $8,632.49         Jan 18, 2010               2 months plus 26   $18,379
Eagle    monthly/ $278.47                             days2
         daily                          Apr 13, 2010 6 months plus 17     56,529
                                                      days3
Camp     $5,755.00         Apr 16, 2010               25 days2             3,481
Long     monthly/ $185.65               May 11, 2010 5 months plus 20     32,488
         daily                                        days3
Camp     $2,929.82         Sept 9, 2010               4 months and 5       9,144
Stanley monthly/ $94.51                               days2
         daily                          Jan 14, 2011 17 days through       1,607
                                                      Jan. 31, 2011
           Total                                                        $121,628
          Less Amount Recouped from Contractor for Modification 10      $ 57,550
          Additional Amount to Recoup from AHN Tech-Korea               $ 64,078
1
  The contract did not show a daily charge, but it stated that the price should be “prorated for part months.” We
computed a daily rate based on a 31-day month.
2
  We assumed it was reasonable for the contractor to charge 25 percent of the monthly charge shown in the contract
because the contractor had to arrange for cleaning the fuel tanks, post daily inventories, and possibly perform other
miscellaneous duties. Camps Eagle and Long had cash sales before they closed, which required the contractor to be
present during operational hours.
3
  After we brought the overpayment to their attention, DLA Energy personnel modified the contract and deleted the
monthly payments for Camps Eagle and Long as of November 2010.


Improvements Needed in the Contract Provisions
The contract with AHN Tech-Korea did not contain other provisions for adequate billing
adjustment for phased-out or discontinued services or for reviewing the contractor’s bill.
Modifying the contract could help ensure that future overpayments do not occur.


                                                           4
Contract Lacked Provisions for Phasing Out/Discontinuing Services
The contract solicitation showed that 6 of the 10 original sites would close at an
unspecified time. Before the audit was completed, operations were discontinued at the
three installations previously discussed, and DLA Energy paid the contractor an
additional amount for cleaning the fuel tanks. However, the contract did not contain
sufficient provisions for phasing out fuel facilities and final tank cleaning. Specifically,
the contract did not discuss the following:

       •    potential reductions in monthly fees for four sites other than Camp Humphreys if
            cash sales operations were discontinued,
       •    a reduction in monthly fees after operations ceased before the final fuel tank
            cleaning was completed, which could be a few months after the service station
            closed, and
       •    a fee for cleaning out the fuel tanks after operations ceased.

To prevent future overpayments, DLA Energy should modify the contract to explicitly
state the portion of the monthly fee that should be paid as services are phased out. Once
in place, the COR and contracting officer should enforce these provisions.

Contractor’s Invoices for Monthly Service Went Directly to DFAS
The contract required AHN Tech-Korea to send the monthly invoices directly to DFAS
for payment. Neither the contracting officer nor the COR reviewed or certified these
monthly bills. As a result, AHN Tech-Korea submitted invoices for services that it did
not provide. The risk of overbilling is high because AHN Tech-Korea continued to bill
for services not performed in the past and because of ongoing and planned base
realignment and closures in Korea. DLA Energy should require the COR to review and
approve future invoices to help ensure AHN Tech-Korea only submits bills for services
rendered.

A 5-Year Service Contract With Three 5-Year Options Is Too
Long
DLA Energy personnel awarded the Army GOCO contract to AHN Tech-Korea for a
5-year period, with three 5-year options, for a firm-fixed price (and a few minor task
orders), from May 1, 2009, through May 1, 2029. Awarding a contract for firm-fixed
prices 1 in U.S. dollars, for a 20-year period, incurs a significant amount of risk to both the
Government and the contractor because of potential exchange rate fluctuations. During
contract negotiations, a prospective contractor mentioned that because of this risk,
“contractors must bid an excessively high price.” However, the DLA Energy officials
responded that the offers should factor in all these issues when submitting bids.
The Federal Acquisition Regulation 17.204, “Contracts,” states that service contracts, to
include option period, should not normally exceed 5 years. Nevertheless, section 2922,
title 10, United States Code allows the Secretary of Defense to issue contracts for
“storage, handling, and distribution” of liquid fuels for up to 5 years, with additional
options for a total of 20 years. We realize that DLA Energy personnel would not


1
    The total price included specific price increases for each of the three 5-year options.


                                                          5
necessarily award the three 5-year options automatically because the Federal Acquisition
Regulation 17.207, “Exercise of Options,” requires the contracting officer to determine
that an option is the most advantageous method of fulfilling the Government’s need.
However, in our opinion, awarding this service contract to provide personnel to operate
and maintain Army service stations, for a total of 20 years including options, was not the
best practice.

We questioned the decision to award this contract with three 5-year options when DLA
Energy was aware of the potential closure of 6 of the 10 service stations when U.S. forces
in Seoul and installations north of Seoul relocate to Camp Humphreys. DLA Energy
should recompete this contract at the end of the initial 5-year period, unless it can
effectively determine and document that awarding an additional option to a contractor
who billed the Government for services not performed is in the best interest of the
Government.
Inadequate Controls Over Issuing Fuel at Army Service Stations
Most of the fuel issued by the GOCO Army service stations went directly into military
vehicles, whose drivers had a Vehicle Identification Link key (similar to a credit card).
The key allowed the drivers to pump their own fuel, which would be automatically
charged to the unit identified on the key. However, the AHN Tech-Korea’s standard
operating procedures also allowed the contractor to issue fuel in containers to personnel
who provided a letter of authorization signed by the installation transportation officer or
designated representative to prevent unauthorized issuance and use of fuel. The
procedures also required a justification to include the required quantity, type of fuel,
number of containers, driver’s name, and office telephone number of requester.

After receiving written requests from customers, contractor personnel at the Camp Casey
service station dispensed more than 13,000 gallons of gasoline from November 1, 2010,
through February 5, 2011, into 5-gallon cans. However, requests were not always
approved by the required individuals and did not include the driver’s name and number of
containers. We also found that AHN Tech-Korea personnel, who issued the gasoline,
were not aware of their standard operating procedures.

Non-compliance with fuel issuance procedures could result in unauthorized issuance and
use of Government-owned fuel. The COR should monitor this function and ensure the
contractor enforces the controls specified in AHN Tech-Korea’s standard operating
procedures.

Incorrect Payments Made and Better Documentation
Needed for International Agreements
DLA Energy administered the following three agreements in support of fuel operations
with the Republic of Korea (ROK) on the behalf of the U.S. Government and USFK.

   •   The Kunsan Pier Agreement permits the joint-use of real estate in connection with
       operation of the Kunsan Pier and Dolphin while sharing operating costs. The U.S.



                                             6
       share for FY 2010 was $158,845. We did not note any problems related to this
       agreement.
   •   The Bulk Fuel Support Agreement allows DLA Energy to use the commercial
       South-North Pipeline with associated commercial and military-owned storage
       facilities for fees. The ROK employed two companies—Daehan Oil Pipeline
       Corporation and SK Corporation—to provide storage, transportation, and terminal
       services for DLA-owned bulk fuel. These services cost $9.5 million for FY 2010.
   •   The Fuel Exchange Agreement allows U.S. and ROK Armed Services to
       exchange and reimburse aviation, ground, and marine fuels at worldwide
       refueling points.

DLA Energy effectively managed and provided sufficient oversight of the Kunsan Pier
Agreement. However, we found overpayments related to the other two agreements as
discussed in the following paragraphs.

Audit Identified and DLA Energy Recouped $159,629 of
Overbilling
Under the Bulk Fuel Support Agreement, SK Corporation personnel billed DLA Energy
monthly for fuel support services. The agreement set fixed monthly facility rental fee to
be charged for the first 5 years and stipulated that the charges for subsequent periods
would be based on actual quantities of fuel throughput. However, SK Corporation
personnel erroneously kept billing a fixed fee past the 5-year period, for 14 months from
May 2009 through June 2010. After discovering the error, DLA Energy personnel
requested and received a repayment of $1,469,566 from SK Corporation in October 2010.
However, while validating the fees paid under the agreement, we discovered that DLA
Energy did not include all of the 14 months when recovering the facility rental fees
overbilled. When calculating the
                                           When we brought it to their attention, DLA
overpayment, DLA Energy
                                             Energy personnel promptly…recovered
excluded the facility rental fee for
                                           $159,629 from SK Corporation for facility
May 2009. When we brought it to
                                                      rental fees overbilled.
their attention, DLA Energy
personnel promptly took corrective
action and recovered $159,629 from
SK Corporation for facility rental fees overbilled. We do not recommend additional
actions because the DLA Energy overpayment was an isolated error and did not represent
a systemic weakness by DLA Energy personnel.

Service Provider Underpaid DLA Energy $17,151 for an Advance
Received
The Bulk Fuel Support Agreement (Agreement) required DLA Energy to pay
SK Corporation an advance payment of $1,667,151 to upgrade its facilities appropriate to
perform agreed upon services. The Agreement also stated that SK Corporation agreed to
repay the advance payment by offsetting equally prorated amounts against service
charges over the first 5 years of performance.




                                           7
SK Corporation personnel provided documentation to show that they repaid the advance
by reducing service charges from $0.78 to $0.66 per barrel for storage, and
$1.22 to $1.04 per barrel for other facility rental fees. We verified that $0.66 and $1.04
were charged as claimed. However, the amount that SK Corporation repaid by reducing
service charges for the 5-year period was $1,650,000, which was $17,151 less than the
advance that SK Corporation received. The discrepancy occurred because SK
Corporation personnel used values from Microsoft Excel spreadsheets that carried
decimal points throughout the calculation process when projecting the advance and
repayment. Yet, for billing, SK Corporation personnel used service charges resulting
from rounding to the nearest cent. It also appeared that DLA Energy personnel did
not thoroughly verify the calculation before they incorporated the advance and
repayment provisions in the Agreement. DLA Energy should recover $17,151 from
SK Corporation.

DLA Energy personnel did not identify small calculation errors in the documentation
used to support the basis of the repayment calculation, and did not maintain adequate
documentation of the negotiations supporting the Agreement. We obtained additional
documentation from SK Corporation personnel to verify the basis for the repayment.
Currently, DLA Energy and ROK personnel are working on a new Bulk Fuel Support
Agreement to replace the existing agreement, which expires in 2014. DLA Energy
personnel should thoroughly review and maintain documentation to support decisions
reached for future agreements.

Procedural Improvements Needed for the Fuel Exchange
Agreement
Under the Fuel Exchange Agreement, DLA Energy maintained a separate account for the
ROK Army, Air Force, and Navy. Each ROK Service and DLA Energy personnel
(the Parties) reconciled each account quarterly by offsetting fuel balances using the oldest
transaction first. The Parties repaid the remaining balance owed either by
replacement-in-kind or in cash, except for the ROK Army, which transferred its balances
to the ROK Air Force for settlement.

During FY 2009 through FY 2010, the ROK Navy paid $6,980,530 to settle the fuel
balances. However, we discovered instances where the ROK Services erroneously used
incorrect exchange rates to convert Korean Won into U.S. dollars and incorrect standard
fuel prices, which raised the costs of ROK-owned fuels charged to DLA Energy. DLA
Energy personnel stated that they did not verify all the data elements ROK Services
presented for reconciliation. As a result, the ROK Navy underpaid DLA Energy by
$6,137. The ROK Navy has agreed to pay the underpayment.

For the same 2-year-period, the ROK Air Force settled the fuel balances three times in
cash, paying $6,303,113 in total after offsetting the balances transferred from the ROK
Army. However, the account balances in the settlements contained procedural errors,
which resulted in a net underpayment of $9,446 by DLA Energy.




                                             8
The discrepancies occurred because DLA Energy, the ROK Army and the ROK Air
Force:
   • did not use ROK standard fuel prices to calculate costs of ROK ground fuel
       supplied to the U.S.;
   • did not account for fuel balances transferred from the ROK Army as fuel-by-fuel
       replacement;
   • inconsistently used U.S. & ROK standard prices to convert ROK ground fuels to
       JP8 aviation fuel equivalent; and
   • used an exchange rate for a month that was incorrect.

As a result, DLA Energy received a net overpayment of $3,309 ($6,137 minus $9,446)
from the ROK Services. For recent reconciliations, the Parties began to use standard fuel
prices of the supplying party in calculating the costs of ground fuel and converting them
to JP8 fuel equivalent, which was consistent with the agreement. However, DLA Energy
should improve the reconciliation process by placing additional controls and procedures
to prevent and detect data errors as well as properly account for fuel balance transfer.

Inconsistent Procedures for Determining Fuel Pricing
for the “Bunker” Contract
DLA Energy paid $77.6 million for 236 fuel deliveries from Korea to ships under
contract SP0600-06-D-0384 (Bunker contract) during the 4 years, ending in
September 2010. The price for this fuel was based on fuel prices posted from the Platts 2
Bunkerwire report. Our review of the pricing for this fuel showed that DLA Energy
personnel did not use the same procedures when choosing the fuel price because they did
not interpret the contract consistently for 12 of the 236 deliveries.

Platts Bunkerwire publishes daily fuel prices, Monday through Friday; however, at times,
Platts does not publish a daily fuel price. The contract stated the fuel reference price to
be used would be Tuesday of the calendar week in which a delivery is made. It further
states that if there is no publication on Tuesday of that week, the item’s reference price
would be the last previously published price before that Tuesday.

There were 12 instances where a delivery was made and Platts Bunkerwire report did not
publish a fuel price on Tuesday. DLA Energy personnel used the most recent published
price for eight of the deliveries, and the prior Tuesday’s published price for four
deliveries. At our request, the contracting officer reviewed the contract language, and
with coordination and approval by DLA Energy Counsel and Director of Direct Delivery
Fuels, stated that the most recent published price should be used when Platts does not
publish on Tuesday. As a result, the contractor was underpaid $45,225 for the four
deliveries. DLA Energy is taking actions to repay the contractor. DLA Energy should
clarify the contract to avoid further inconsistent pricing by DLA Energy personnel.



2
 Platts is a global provider of energy and metals information and a source for price assessments in the
physical energy markets.


                                                     9
Post, Camp, and Station Contracts Should Be Modified
to Delete Requirements for Work Not Performed
DLA Energy awarded four, 5-year contracts (known as Post, Camp, and Station
contracts) beginning in October 2009 to four Korean commercial companies for purchase
and delivery of diesel and unleaded gasoline to various military bases located in Korea.
The price per gallon for delivered fuel was based on average prices (which changed every
2 weeks) shown in Platts Oilgram Price report plus a fixed dollar amount per gallon for
each delivery site for the contractor’s margin. The contracts included an “automatic fill”
provision for certain sites, which included multiple fuel tanks used for heating oil (diesel)
located at each installation. The “automatic fill” provision required contractors to
establish and maintain a delivery schedule to assure that the fuel in each tank is at least
30 percent full, at all times. DLA Energy included the “automatic fill” provision to
reduce workload for Government personnel and transfer responsibility of monitoring fuel
tanks to the contractor.

Government Personnel Were Performing Functions That the
Contractor Was Paid to Perform
The contract included “automatic fill” provisions for several Army installations and
Air Force bases. At Army installations (such as Yongsan, Korea and Camp Humphreys),
during the heating season, the contractor used three to eight full-time personnel to
monitor fuel tank levels and create fuel delivery schedules. However, contractors did not
perform this function at Osan Air Base, Korea. Air Force Instruction 23-204,
“Organizational Fuel Tanks,” June 24, 2009, required fuel tank custodians to secure each
fuel tank with a key to protect fuel from misappropriation, contamination, pilferage, and
sabotage, which did not allow the contractor to have access to fuel tank levels.
Therefore, Air Force personnel checked the status of fuel and scheduled deliveries and
the amount of fuel to be delivered.

Review of contract pricing for “automatic fill” site verses sites without “automatic fill”
showed price differences of $0.0786 to $0.2857 per gallon for the contractor’s margin.
For FY 2010, Osan Air Base purchased 2.8 million gallons of diesel heating oil under
contract SP0600-09-D-1258. The difference in margin for this quantity of heating oil
purchased for Osan Air Base was $0.1229 per gallon (or about $340,000).

It should be noted that while the contractor’s margin was higher for delivery of diesel
heating oil, there were other variables in determining price per gallon, such as the
distance of delivery and the number of tanks to be filled. Therefore, the potential price
reduction would probably be less than $340,000. However, the fact that the contractor
was using up to eight employees at Yongsan to perform the “automatic fill” function
indicates that modifying the contracts to reduce the cost for services not performed
should reduce fuel costs at Osan Air Base.

If DLA Energy personnel had performed adequate research before awarding the contract,
the solicitation may have excluded this requirement. Also, if a COR had been appointed
to properly monitor the contractor’s performance, DLA Energy may have discovered the


                                             10
problem and modified the contracts to reduce the cost. DLA Energy should modify the
applicable contracts to delete the “automatic fill” function for Osan Air Base.

Recommendations, Management Comments, and Our
Response
We recommend the Commander, Defense Logistics Agency Energy:

1. Recoup the funds from contract SP0600-09-C-5904 with AHN Tech-Korea for
services not provided and modify the contract. Specifically,

       a. Recoup the monthly fee of $6,895.96 for a cash sales operation since the
inception of the contract and modify the contract to eliminate this charge from
future monthly payments.

Defense Logistics Agency Comments
The Director, Defense Logistics Agency Acquisition, partially agreed and stated that the
Defense Logistics Agency received notification to discontinue services on January 9,
2011, and has already recouped some of the funds. While AHN Tech-Korea adhered to
the terms of the contract by manning the Camp Humphreys service station, the
contracting officer will notify the contractor that he plans to recoup additional funds.
However, Defense Logistics Agency personnel are uncertain of the amount of funds that
will be recouped.

Our Response
Comments from the Director, Defense Logistics Agency Acquisition are responsive. We
support the effort to recoup overpayments in fees from AHN Tech-Korea. Although
AHN Tech-Korea was not legally bound to remove the charges until officially notified by
the contracting officer, AHN Tech-Korea should have removed the charges for the cash
sales function that it did not perform since the inception of the contract. Defense
Logistics Agency Energy personnel stated that the contractor continued to man the
service station even though it did not provide a cash sales function. However, when we
visited the Camp Humphreys service station, AHN Tech-Korea did not have additional
personnel for cash operations, which it showed were needed in its final proposal dated
December 10, 2008. Therefore, we expect AHN Tech-Korea to fully cooperate in
refunding the overpayments that we identified in our audit report. We hope that Defense
Logistics Agency Energy personnel will consider the contractor’s response in returning
the funds when it evaluates the contractor’s past performance.

      b. Recoup an estimated $64,078 (as of January 31, 2011) for services not
provided upon closure of the service stations at Camps Eagle, Long, and Stanley.

Defense Logistics Agency Comments
The Director, Defense Logistics Agency Acquisition, partially agreed and stated that
$61,897 was recouped from the contractor. Defense Logistics Agency Energy did not
agree with our estimate that the contractor should receive only 25 percent of the monthly


                                           11
payment after operations at Camps Eagle, Long, and Stanley ceased. However, the
contracting officer is working with the COR to determine what services were
discontinued. The COR will quantify the discontinued responsibilities in terms of
contractor-required manning, and the contracting officer will determine actions necessary
and recoup additional funds by November 15, 2011.

Our Response
Comments from the Director, Defense Logistics Agency Acquisition are responsive. The
information shown in this report, which we confirmed with the COR, already gives
enough data to provide Defense Logistics Agency Energy personnel with a reasonable
basis for negotiating additional funds to be recouped. Because neither the contracting
officer nor the COR implemented effective procedures to curtail the monthly payments
when the service stations closed, Defense Logistics Agency Energy personnel will have
to negotiate with AHN Tech-Koreato recoup funds paid in the past. As previously stated,
we hope the results of these negotiations are considered when Defense Logistics Agency
Energy evaluates the contractor’s past performance.

       c. Require all contractor invoices to be approved by the contracting officer’s
representative.

Defense Logistics Agency Comments
The Director, Defense Logistics Agency Acquisition, agreed and stated that the
contracting officer will modify the contract by September 13, 2011, and require that all
invoices be certified by the COR before submission to DFAS.

       d. Specify the amount of reductions to the monthly fee if cash sales are
discontinued or normal service is curtailed before cleaning out the fuel tanks after
operations cease.

Defense Logistics Agency Comments
The Director, Defense Logistics Agency Acquisition, agreed and stated that the
contracting officer will modify the contract by November 15, 2011, to include language
in the performance work statement that outlines procedures to follow for a facility to be
considered “closed.” The contracting officer will modify the contract to address
measures that the Government will take to negotiate the potential reductions in the
contract price and to ensure that a balance is maintained between the level of contractor
effort necessary to fulfill contractual obligations and the payment for these actions.

2. Review the performance of the officials responsible for providing oversight of
contract SP0600-09-C-5904 and validating the payments to AHN Tech-Korea and
based on the results consider any corrective actions, as appropriate.

Defense Logistics Agency Comments
The Director, Defense Logistics Agency Acquisition, agreed and stated that the original
COR relinquished his duties. Defense Logistics Agency Energy personnel implemented



                                            12
standard operating procedures for the Army COR to use as a guide in monitoring the
contractor’s performance. Defense Logistics Agency Energy personnel also met with the
COR, installation personnel, and the contractor to enhance contract oversight. As a result
of this effort, Defense Logistics Agency Energy prepared multiple recommendations to
improve oversight, which are being implemented. For example, communication between
the COR and the contracting office has increased as exemplified in the recent creation of
a shared portal intended to house information pertaining to the subject contract and to
facilitate discussion of outstanding issues.

3. Recompete contract SP0600-09-C-5904 when it expires at the end of 5 years
rather than exercising a new 5-year option, as shown in the contract, unless Defense
Logistics Agency Energy can effectively determine and document that awarding an
additional option is in the best interest of the Government.

Defense Logistics Agency Comments
The Director, Defense Logistics Agency Acquisition, agreed and will comply with the
requirements in the Federal Acquisition Regulation regarding the exercising of options,
which requires the Government to recompete a contractual requirement, if the exercise of
an option is not in the best interest of the Government.

4. Enforce the provisions of AHN Tech-Korea’s standard operating procedures
requiring adequate documentation for fuel issued to DoD customers.

Defense Logistics Agency Comments
The Director, Defense Logistics Agency Acquisition, agreed and stated that the COR
distributed a memorandum to AHN Tech-Korea and applicable Army personnel
reminding them of the requirements on March 11, 2011. The Director, Defense Logistics
Agency Acquisition, also stated that the COR provided samples of forms and instructions
on how to properly complete them. Also, Defense Logistics Agency Energy personnel
modified the contract to incorporate this language on August 16, 2011.

5. Request SK Corporation to return the remaining $17,151 balance of the
$1.7 million advance it received in 2004, and establish procedures to ensure the
Defense Logistics Agency Energy thoroughly reviews and maintains documentation
to support future international agreements.

Defense Logistics Agency Comments
The Director, Defense Logistics Agency Acquisition, agreed and stated that
SK Corporation agreed to repay $17,151 to settle the debt in full. In addition, in
June 2011, Defense Logistics Agency Energy personnel implemented a new Defense
Logistics Agency Energy International Agreement Program Instruction, which outlines
the roles and responsibilities associated with managing international agreements. This
instruction also provided procedural guidance for managing funding and record keeping
for the Defense Logistics Agency Energy International Agreement Program.




                                           13
6. Establish additional controls and procedures for the reconciliation process under
the Fuel Exchange Agreement to prevent and detect data errors and to properly
account for fuel balance transfers.

Defense Logistics Agency Comments
The Director, Defense Logistics Agency Acquisition, agreed and stated that Defense
Logistics Agency Finance Energy added additional controls to the Fuel Exchange
Agreement reconciliation spreadsheet to allow for increased oversight. Tables of
standard prices and exchange rates have also been added to automatically calculate costs
to each individual transaction instead of a sum total. This will ensure that the oldest
transactions are offset first when calculating gallon for gallon offsets.

7. Clarify the pricing policy for fuel deliveries in contract SP0600-06-D-0384 and, if
necessary, reimburse the contractor for underpayments caused by the inconsistent
interpretation of the contract by Defense Logistics Agency Energy personnel.

Defense Logistics Agency Comments
The Director, Defense Logistics Agency Acquisition, agreed and stated that Defense
Logistics Agency Energy personnel clarified their pricing policy. Also, Defense
Logistics Agency Energy personnel and the contractor have resolved all pricing issues.

Our Response
Comments from the Defense Logistics Agency for Recommendations 1.c. through 7 are
responsive. We accept all proposed or completed actions in response to the report. No
additional comments are required.

8. Renegotiate and modify contract SP0600-09-D-1258 to delete the “automatic fill”
function at Osan Air Base to reduce the costs of heating fuel delivered, and appoint
a contracting officer’s representative to monitor adherence to the terms of the Post,
Camp, and Station contracts.

Defense Logistics Agency Comments
The Director, Defense Logistics Agency Acquisition, agreed and stated that Air Force
submitted a validated requirement for the “automatic fill” function when Defense
Logistics Agency Energy issued the solicitation for the contract. However, at
approximately the same time that Defense Logistics Agency Energy issued the contract
[the contract began in October 2009], the Air Force issued an instruction requiring its
personnel to gauge the fuel tanks and place orders to refill the fuel tanks. Based on this
change in Air Force guidance, Defense Logistics Agency Energy personnel will modify
the contract by September 30, 2011, to delete the automatic fill requirement.

Our Response
Comments from the Defense Logistics Agency are responsive. However, Defense
Logistics Agency Energy personnel have not yet issued the modification in
Recommendation 8. Therefore, we request that the Commander, Defense Logistics


                                            14
Agency Energy, provide comments to the final report indicating the results of these
contractual negotiations, so we may finalize the monetary benefits estimated in our report
and summarized in Appendix B.




                                           15
Appendix A. Scope and Methodology
We conducted this performance audit from September 2010 through July 2011 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives. Our announced audit objective included a
review of fuel requirements in Korea; however, we are conducting a separate audit of fuel
requirements with emphasis on requirements for war reserves and contingency
operations.

Our review included the following 16 contracts and 3 international agreements in place
during FY 2010. DLA Energy spent $550.8 million on these contracts and agreements
during FY 2010. However, we expanded our review in some cases to cover periods
before FY 2010, as shown below:
    • three bulk fuel contracts, which began in January 2010 (SP0600-10-D-0454,
        10-D-0455, 10-D-0451). DoD spent $333.7 million during FY 2010 for fuel
        purchased using these contracts. DoD also spent $123.6 million during FY 2010
        on four contracts (SP0600-09-D-0455, 09-D-0456, 09-D-0459, and 09-D-0461),
        which expired in December 2009;
    • four Post, Camp, and Station contracts (SP0600-09-D-1255, 09-D-1256,
        09-D-1257, and 09-D-1258). DoD spent $66.2 million during FY 2010 for fuel
        purchased using these contracts;
    • three international agreements with the ROK for fuel support; DoD spent
        $21.6 million under the Bulk Fuel Support and Kunsan Pier Agreements for
        21 months ending September 30, 2010, and received $13.3 million under the Fuel
        Exchange Agreement during FYs 2009 and 2010;
    • three GOCO contracts (SP0600-08-C-5826, 08-C-5833, and 09-C-5904);
        DoD spent $3.7 million during FYs 2009 and 2010 for management of fuel
        support facilities and other services;
    • contract SP0600-06-D-0384 (Bunker Contract); DoD spent $77.6 million during
        the 4 years ended September 2010 for fuel delivered from Korean commercial
        companies to various ships loaded from bunker barges in Korea; and
    • contract SP0600-07-D-0465 for “Turbine Fuel, Aviation, Thermally Stable”
        JPTS fuel. DoD spent $1.5 million for this fuel during FY 2010.

We interviewed DLA Energy and other responsible personnel (including contracting
officers and specialists, quality assurance representatives, CORs, logistics, inventory
management, and financial specialists) to obtain an understanding of DLA Energy’s fuel
contracts and international agreements, and evaluate management of wholesale fuel
operations in Korea.




                                           16
We obtained and reviewed the following information:
   • contracts and associated supporting documents, inspection and receiving reports,
       quality control plans, fuel receipts, fuel discrepancy reports, and contract activity
       reports for pricing and quality controls/assurance, and controls over fuel delivery
       and receipt;
   • fuel receipts, end-of-month inventory reports, issue/transfer/distribution
       documentation for support of GOCO sites; and
   • Memorandums of Agreement and associated supplements and available
       supporting documentation, and reconciliation documents to validate the accuracy
       of payments and fuel account balances.

We verified payments by DFAS of $854 million for the bulk fuel contracts, $66.2 million
for the post, camp, and station contracts; and $77.7 million for the bunker contract. We
reviewed the quantity from receiving reports against DFAS’ contract activity reports. We
also compared DFAS’ contract activity reports with DLA Energy’s fuel price Web site to
verify that the price per gallon was correct. We visited two (Kunsan and Pohang) of the
three GOCO bulk fuel storage facilities and the testing laboratory at Pyeongtaek operated
by PAE Korea Limited and verified the accountability of the Government-furnished
equipment provided. We also verified the accuracy of the monthly service charges for
these facilities paid by DFAS.

We visited and observed GOCO operations from six of the seven Army service stations
in Korea located at Camps Humphreys, Walker, Carroll, Casey, Red Cloud, and Yongsan
Army Garrison and the GOCO operation at Osan Air Base under a different contract. We
also verified the accuracy of the monthly service fees for operating these stations.
Estimated overpayments for the Army GOCO contract are discussed in the report.

We recalculated fees based on the Bank of Korea Consumer Price indices to evaluate the
accuracy of payments for the Memorandums of Agreement. We conducted an analysis of
the issue and replacement transactions that occurred under the Fuel Exchange Program to
validate fuel account balances and assessed the monetary effects of discrepancies if any.
We confirmed the receipt of the advance payment by the contractor and tried to verify the
contractor repayment of the advance payment.

For the Bunker contract, we assisted the Naval Criminal Investigative Service in
investigating several quantity disputes made by Navy and Military Sealift Command
personnel. The support included, conducting analysis of the disputes with bunker fuel
deliveries over quantity received, by reviewing documentary support from both the
contractor and vessel; and observing a bunker fuel delivery and asking inquiries to fuel
experts on the quantity disputes. At the time of the audit, neither we nor the Naval
investigators had been able to determine the cause of these alleged shortages. Near the
end of the audit, DLA Energy quality assurance personnel began taking a more active
role in observing these fuel purchases to tighten controls to validate whether actual
shortages existed.




                                             17
Use of Computer-Processed Data
We relied on DLA Energy’s Web-posted fuel prices, which came from Platts Oilgram
Price Reports, as specified in the applicable contracts. DLA Energy’s Web-posted fuel
prices present the daily, weekly, and bi-weekly fuel prices for the Fuel contracts procured
by DLA Energy. The fuel published prices are taken into DLA Energy’s information
system, which executes calculations to determine the new fuel price. We used the fuel
prices to validate the accuracy of contract payments. We compared DLA Energy’s
Web-posted fuel prices with the contract activity reports to determine whether the correct
fuel price was used. We also performed a limited analysis of the same calculations used
to derive the new fuel price. From these procedures, we are confident that DLA Energy’s
Web-posted fuel prices are sufficiently reliable for the purpose of validating the accuracy
of contract payments.

Prior Coverage
During the past 5 years, the DoD Office of Inspector General issued one report related to
DLA Energy fuel contracts. This report can be accessed at
http://www.dodig.mil/audit/reports.

DoD Inspector General
DoD IG Report No. D-2006-094, “Improper Payments of Defense Fuel,” June 29, 2006




                                            18
Appendix B. Summary of Potential Monetary
Benefits1
    Recommendations                   Type of Benefit2                    Amount of                   Account
                                                                           Benefit
    None.                       Economy and Efficiency.                      $57,5501            97X4930.5CF0
                                Contract amended.


    1.b.,c., and d.             Economy and Efficiency                            $64,078        97X4930.5CF0
                                and Internal Controls.
                                Recovers payments for
                                work not performed.
    1.a.,c., and d.             Economy and Efficiency                         $413,7583         97X4930.5CF0
                                and Internal Controls.
                                Recovers costs for work
                                not performed.
    None.                       Economy and Efficiency.                        $159,6291         97X4930.5CF0
                                Recovers overbilling by
                                contractor.

    5.                          Economy and Efficiency                            $17,151        97X4930.5CF0
                                and Internal Controls.
                                Recoups advance paid to
                                service provider.
    8.                          Economy and Efficiency.                Undeterminable
                                Recommends
                                renegotiation on contract
                                for services not provided
                                by the contractor.
                                   Total                                        $712,166
1
  $712,166 in monetary benefits include $217,179 ($57,550+$159,629) already achieved.
2
  Potential monetary benefits are questioned costs.
3
  Calculation based on the monthly bill of $6,895.96 for a cash sales operation at the Camp Humphreys service station
for the 5-year contract. The contractor already billed $144,815 of the $413,758 as of January 31, 2011.




                                                          19
Defense Logistics Agency Comments




                  Click to add JPEG file




                                 20
Click to add JPEG file




               21
Click to add JPEG file




               22
Click to add JPEG file




               23
Click to add JPEG file




               24
